                                                                                             . .. _   ,


                 Unired States Dcpanmem of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                W'1.lhingwrl, DC ZllZ4D




Memorandum                                                              OCT 03 2007
To:          Dirk Kempthorne
             Secretary

From:


Subject:
        r-   Earl E. Devaney
             Inspector General

             Inspector General's Statement Summarizing the Major Management and
             Performance Challenges Facing the Department of the Interior

        In accordance with the Reports Consolidation Act of2000, we are submitting the
attached summaries of issues we have determined to be the most significant management
and performance challenges facing the Department of the Interior (Department), to be
included in the Department's Performance and Accountability Report for fiscal year
2007. The challenges listed reflect what the Office ofInspector General considers to be
significant impediments to the Department's efforts to promote economy, efficiency, and
effectiveness in its agencies ' management and operations.

        The top challenges are as follows:

             ~   Financial Management
             ~   Information Technology
             ~   Health, Safety, and Emergency Management
             ~   Maintenance of Facilities
             ~   Responsibility to Indians and Insular Areas
             ~   Resource Protection and Restoration
             ~   Revenue Collections
             ~   Procurement, Contracts, and Grants

        These issues are important to the Department's mission, involve large
expenditures, require significant management improvements, or involve significant
fiduciary relationships. We believe the Department could enhance and improve its
overall operational effectiveness and efficiency by developing strategies to identifY. and
correct deficiencies, especially in activities that cut across bureau and program lines.

Attachment
                                                                             Attachment


Office of Inspector General Update of the Top Management Challenges
                   for the Department of the Interior


1. Financial Management

Sound financial management is critical to providing accurate financial information,
managing for results, and ensuring operational integrity. The independent public
accounting firm of KPMG LLP, under a contract monitored by the Office of Inspector
General (OIG), rendered an unqualified opinion on the Department of the Interior’s
(Department) consolidated financial statements for fiscal year 2006. However, KPMG
also identified one material weakness and seven significant deficiencies in internal
controls, one deficiency in internal control over Required Supplementary Information,
and three instances of noncompliance with laws or regulations.

The Department has several initiatives aimed at improving financial management
including the Financial and Business Management System (FBMS) and Performance and
Budget Integration. Although these initiatives should upgrade financial management in
the future, they are placing increased demands on already stretched financial resources.

Financial and Business Management System

The implementation of FBMS continues to be a major management challenge in the
Department. FBMS will replace a variety of outdated, stand-alone, mainframe-based
systems that are costly to operate and difficult to secure. The current systems do not
provide timely financial and performance information, and do not comply with financial
system standards. About 160 systems will be affected by this implementation.

The Department began implementing FBMS in fiscal year 2005 and had planned to have
the system fully implemented by the end of fiscal year 2008. However, after the
Department removed the original contractor from the project in September 2005 and
contracted with a new system integrator in February 2006, the Department revised their
implementation date from fiscal year 2008 to fiscal year 2012.

The Minerals Management Service (MMS) and the Office of Surface Mining and
Reclamation are currently using the core financial module of the system, however,
operational problems plague the system. These problems have already resulted in delays
in implementing the core financial module at the National Business Center’s (NBC)
GovWorks.

Also, funding for the next fiscal year may not be adequate for the next phase of
deployment. In prior years, the project received funds from GovWorks. The anticipated


                                           1
level of funds may not be available during the next fiscal year due to decreased
contracting activity for GovWorks on external contracts. (See Procurement, Contracts
and Grants section). In addition, Congress has proposed reductions in the amount of
funds requested by the Department for the project. Lack of adequate funding could result
in a reduction in the scope of work for the next fiscal year and may extend the project
completion date beyond fiscal year 2012.

Budget and Performance Integration

Better budget and performance integration is essential to results-oriented management
and efficient allocation of scarce resources among competing needs. The variety and
number of programs within the Department makes budget and performance integration
particularly difficult.

From 2002 to 2007, the Office of Management and Budget (OMB) assessed 72 of the
Department’s programs, reflecting almost $10 billion in annual budget authority. OMB
rated only 8 programs (11 percent) of the 72 as “Effective.” OMB rated 16 programs (22
percent) as "Results Not Demonstrated" because OMB was unable to determine whether
these programs were performing satisfactorily due to the lack of reliable performance
information. These 16 programs reflected approximately a quarter of the Department’s
assessed spending. The Department needs to continue to focus on developing useful
performance measures.

2. Information Technology

The Department continues to strive towards a comprehensive Information Technology
(IT) Security Program which complies with the Federal Information Security
Management Act of 2002. However, weaknesses in information security policies and
practices continue to threaten the confidentiality, integrity and availability of information
and information systems used to support the Department’s missions.

Our 2007 Trusted Insider Threat Evaluations of networks managed by the Bureau of
Land Management (BLM), MMS, and NBC all demonstrated the Department remains
vulnerable to an inside attacker. Additionally, the evaluations revealed ineffective
internal intrusion detection and prevention capabilities.

During the year, we completed both vulnerability assessments and external penetration
testing on a sample of the Department information resources. Our technical testing at
BLM, Bureau of Reclamation (BOR), Office of the Secretary, and the U.S. Geological
Survey (USGS) disclosed vulnerabilities which could potentially be exploited. The
Enterprise Services Network infrastructure has improved the Department’s perimeter
security. However, application security at the bureau level continues to present attackers
with targets of opportunity. We determined that the Department has not fully
implemented continuous monitoring and system testing, which is an essential part of the
federal Certification and Accreditation guidance.




                                              2
We completed evaluations of a sample of Federal Information Processing Standards
Publication 200 baseline controls and selected National Institute of Standards and
Technology 800-53 IT Security Controls at BLM and NBC. We determined that the
Department is not in full compliance with all of the baseline controls. These IT security
control weaknesses hinder the success of a comprehensive and consistent IT Security
Program at the Department.

3. Health, Safety, and Emergency Management

Annually, the Department has over 500 million visits to national parks, BLM recreational
sites, U.S. Fish and Wildlife Service (FWS) wildlife refuges, and BOR recreation sites.
The Department must protect hundreds of millions of visitors, employees, and volunteers,
thousands of facilities, and millions of acres of property from both internal and external
threats. The physical isolation of some Department lands and facilities increases their
vulnerability to threats and inhibits the Department’s response time. The Department’s
Office of Law Enforcement, Security, and Emergency Management continues to struggle
with its role involving policy and oversight of bureau law enforcement, security, and
emergency management programs.

The devastating hurricanes of 2005 had a two-fold impact on the Department. First, the
Department assisted with federal relief efforts under the National Response Plan (NRP).
Second, bureaus directly experienced the impact of the disasters. The Department
sustained significant damage to 12 parks and preserves, 86 refuges, 68 water monitoring
gauges, and the MMS Gulf of Mexico Regional Office. As of September 30, 2006, the
Department spent approximately $104 million on hurricane relief and recovery. This
included approximately $61 million for NRP activities and $43 million to address internal
damage. The OIG is pleased to report that overall the bureaus effectively managed their
2005 hurricane related expenditures. Given the magnitude of the damage to the Gulf
Coast and the Department’s facilities, the issues the OIG identified through expenditure
testing proved relatively insignificant. The bureaus performed well.

We found that the Department has an unsafe and unreliable radio communications
environment that jeopardizes the health and safety of Department employees and the
public. Technical studies have identified over 100 Department radio sites in poor or
hazardous conditions. These conditions result in physical safety hazards that pose an
immediate risk of injury or death to employees and the public. In addition, severe
deterioration at some Indian Affairs (IA) elementary and secondary schools, including
boarding schools, may directly affect the health and safety of Indian children. Some of
these buildings have been condemned for over 10 years and pose the potential for serious
injury or death for students and faculty. Finally, FWS employees and USGS biologists
are working in unsafe buildings that were condemned nearly 8 years ago; FWS has made
little progress in replacing the condemned facilities.

We issued two flash reports to notify the Department of serious health and safety issues.
One report noted a serious system failure at a National Park Service (NPS) facility that is
used by visitors and staff, placing users’ lives in danger. The second report noted that an


                                             3
abandoned mine site on BLM land was contaminated with high levels of arsenic. In both
instances, bureau officials knew of the health risks but had not taken timely action to
mitigate danger to the public and employees. Our reports were intended to prompt
immediate action.

4. Maintenance of Facilities

The Department owns, builds, purchases, and contracts services for assets such as roads,
bridges, schools, office buildings, dams, irrigation systems, and reservoirs. Repair and
maintenance of some of these assets have been postponed until future years due to
budgetary constraints. The Department refers to these unfunded repair and maintenance
needs as deferred maintenance.

According to the February 2007 Government Accountability Office (GAO) report,
“Major Management Challenges, Department of the Interior,” the Department has made
progress addressing prior recommendations to improve information on the deferred
maintenance needs of NPS facilities and IA schools, however, its maintenance backlog
continues to grow substantially.

The deferred maintenance backlog is a continuing challenge for the Department.
According to the fiscal year 2006 “Annual Report on Performance and Accountability,”
exact estimates of deferred maintenance costs are difficult to determine due to the scope,
nature, and variety of assets entrusted to the Department, as well as the nature of deferred
maintenance itself. Using the Department’s current approach for estimating the backlog,
the amount needed to correct deferred maintenance for property, plant, and equipment
ranges from approximately $9.6 billion to $17.3 billion.

5. Responsibility to Indians and Insular Areas

Management problems persist in programs for Indians and island communities. The
Department provides more than $750 million annually for basic tribal services, including
tribal courts, social services, and natural resource management. The Department is
responsible for administering the federal government’s trust responsibilities to Indian
tribes and individual Indians and has various responsibilities to seven island communities
— four territories and three sovereign island nations.

Tribal entities’ financial compliance with funding agreements should be ensured through
the single audit process; however, 36 (42 percent) of the 86 single audit reports reviewed
by the OIG for tribal entities (including tribal governments and tribal schools, and tribal
associations) submitted delinquent single audit reports during fiscal year 2007.

The OIG found that serious loan portfolio deficiencies, coupled with a significant
economic downturn, threaten the viability of the development bank of Commonwealth of
the Northern Mariana Islands (CNMI). The bank, operated under the Commonwealth
Development Authority (CDA), was established to drive economic growth through loans
to new and existing businesses. After 20 years of operation, CDA’s uncorrected loan


                                             4
portfolio deficiencies have resulted in high delinquency rates and plummeting assets.
The deficiencies are long-standing and have been documented both by our office and by a
2002 CNMI Public Auditor’s report. Although CDA continues to operate at a reduced
level of service, it cannot begin to correct loan deficiencies, build revenues, and meet its
mandate to stimulate economic progress without immediate and decisive action.

We were troubled to find that the Virgin Islands Lottery has virtually no control over
video lottery terminal operations, a condition that raises serious concerns about whether
the Virgin Islands Government is receiving all the lottery revenues and taxes to which it
is entitled. Our audit revealed that the Lottery received $8.3 million in total revenues for
calendar years 2003 through 2005. The video lottery terminals were expected to generate
revenues to the Virgin Islands Government of about $15 million annually, thereby
enabling the Virgin Islands Government to implement or supplement programs to
improve the economy and quality of life for the people of the Virgins Islands. Southland
Gaming of the Virgin Islands controls every aspect of video gaming on the islands as a
result of a flawed contract and master license agreement.

6. Resource Protection and Restoration

The Department’s resource managers face the challenging task of balancing competing
interests for the use of the Nation’s natural resources. Federal lands account for
approximately 30 percent of energy produced in the United States. The Department has
jurisdiction over 1.76 billion acres of the Outer Continental Shelf, manages about one-
fifth of the land area of the United States, and administers 700 million acres of subsurface
mineral estate throughout the Nation. In addition, the Department protects thousands of
wetlands, aquatic parcels, and native plant and animal species, including more than 1,300
with special status under the Endangered Species Act.

Annual appropriations to prepare for and respond to wildland fires have increased
substantially over the past decade, in recent years totaling about $3 billion. BLM, IA,
NPS, and FWS within the Department, along with the Forest Service within the
Department of Agriculture are responsible for responding to wildland fires on federal
lands. The GAO found that although the agencies have established a broad goal of
suppressing wildland fires at minimum cost — considering firefighter and public safety
and resources and structures to be protected — they have no defined criteria by which to
weigh the relative importance of these often-competing priorities. As a result, according
to agency officials and reports, officials in the field lack a clear understanding of the
relative importance the agencies’ leadership places on containing costs and therefore are
likely to select firefighting strategies without due consideration of the costs of
suppression. The agencies also have yet to develop a vision of how the various cost-
containment steps they are taking relate to one another or to determine the extent to
which these steps will be effective. The agencies are working to develop a better cost-
containment performance measure, but the measure may take a number of years to fully
refine. Finally, the agencies have taken, or are beginning to take, steps to improve their
oversight and increase accountability — such as requiring agency officials to evaluate



                                             5
firefighting teams according to how well they contained costs — although the extent to
which these steps will assist the agencies in containing costs is unknown.

The OIG reviewed the special-use permits issued by NPS and BLM that allow for the
private use of public lands. The OIG found that NPS has allowed private individuals or
exclusive clubs to monopolize desirable locations near major metropolitan areas for
decades to the exclusion of the general public. Some of the clubs charge high
membership fees or limit the number of people who can become members. NPS
continues to renew the permits for these exclusive clubs and has kept the $2.6 million in
permit fees received over the 4-year period of our review instead of remitting the funds to
the United States Treasury. Moreover, both NPS and BLM have allowed permits to be
renewed without ensuring their compliance with the requirements of the National
Environmental Policy Act.

7. Revenue Collections

In fiscal year 2006, mineral lease revenues collected by the Department on behalf of the
federal government exceeded $12 billion. In addition, the Department’s revenue from
activities such as grazing, timber, and lands sales was over $6 billion.

In fiscal year 2006, GAO reported that oil and gas companies received over $77 billion
from the sale of oil and gas produced from federal lands and waters, and MMS reported
that these companies paid the federal government about $10 billion in oil and gas
royalties. Based on the results of a number of studies, GAO found that the federal
government receives one of the lowest government royalty rates in the world and has
consistently ranked low in government royalty rates compared to other governments.

Historically, MMS has relied on audits to verify companies’ reported royalties. In the
late 1990s, MMS began reengineering its royalty verification processes, which included
the establishment of the Compliance Review Process. A compliance review is less
intensive than an audit and is designed to determine the reasonableness of reported
royalties without obtaining detailed source documentation or conducting site visits.
However, compliance reviews do not provide the same level of assurance as an audit and
therefore should only be used in conjunction with audits in a coordinated compliance
strategy. The OIG found that weaknesses in the compliance review process may prevent
MMS from maximizing the benefits of the compliance reviews. These weaknesses
related to management information, the compliance review process, and the performance
measures used to evaluate the Compliance and Asset Management Program’s
effectiveness.

On January 23, 2006, the New York Times published an article alleging that oil and gas
companies were not paying the correct amount of royalties due to the American taxpayer.
The article focused on the fact that the increase in royalty payments made to the federal
government in 2005 had not paralleled the increase in profits the oil and gas companies
reported to their shareholders. In response to this article, the MMS Director was called to
testify before the House of Representatives Committee on Government Reform. The


                                            6
Director testified that MMS had issued leases in 1998 and 1999 without price thresholds
that had previously been included in leases issued after the passage of the Outer
Continental Shelf Deep Water Royalty Relief Act in 1995. This was done in error rather
than an MMS policy decision; however, the result was that no royalties are due even
though prices are high. An OIG investigation determined that the Associate Director for
Offshore Minerals Management was informed of the omission in 2000. The MMS
Director was not informed of the omission until 2004.

8. Procurement, Contracts, and Grants

Procurement, contracts, and grants have historically been areas subject to fraud and waste
government-wide; managing them is a continuing challenge. The Department spends
substantial resources each year in contracting for goods and services and in providing
federal assistance to states and Indian organizations. The Department provides over $2
billion each year in funding for grants, cooperative agreements, Indian self-determination
contracts, and self-governance compacts to state, local, and insular area governments;
Indian tribes; colleges and universities; and other nonprofit organizations.

Procurement and Contracts

Recent audits at the Department and other federal agencies highlighted concerns with
interagency procurement services performed through fee-for-service organizations.
Interagency contracting is a tool that, when effective, can help agencies to streamline the
acquisition process and increase cost efficiency. The Department has two acquisition
centers that assist other government agencies. These are GovWorks and the Acquisition
Services Division, Southwest Branch (SWB), both of which are under the NBC.

In fiscal year 2005, the Department executed procurements through these centers in
excess of $1.7 billion on behalf of the Department of Defense (DOD). The National
Defense Authorization Act for Fiscal Year 2006 required that the DOD Inspector General
work with the other Inspectors General to review procurement policies, procedures, and
internal controls, as well as administration for all agencies processing more than $100
million in DOD procurements. To meet this requirement, the DOD OIG and the
Department of the Interior OIG jointly audited the two Department contracting centers
that provide acquisition services to DOD. The audit objective was to determine whether
the Department complied with DOD procurement requirements, including whether the
Department and DOD used and tracked funds properly. The DOD OIG also evaluated
whether DOD had a legitimate need to use Department contracting services.

Overall, the audit determined that neither GovWorks nor SWB complied in full with legal
requirements, with federal acquisition regulations, and with DOD supplemental
requirements. In fact, the contracting centers routinely violated rules designed to protect
federal interests and the public trust. These actions put the Department at risk for loss of
business as well as loss of public confidence and trust and may result in Antideficiency
Act violations at DOD.




                                             7
An OIG audit identified that IA purchased and stored an estimated $3.6 million in radio
equipment it could not use. IA started purchasing equipment in fiscal year 2000 as part
of its conversion to mandated narrowband radio technology. Since it lacked a plan to
guide its equipment purchase, IA wasted valuable resources buying unusable equipment
for which it will continue to incur storage and maintenance costs, as well as extensive
costs to upgrade, refurbish, replace, or dispose of the aging equipment. IA also lacked
inventory controls over approximately $6.2 million in purchased equipment, resulting in
potential losses due to fraud, theft, or negligence.

The OIG also found that IA maintained inadequate contract documentation to support the
$20 million expended on this technology. Specifically, it failed to locate documentation
for two contracts, while documentation for other procurements proved incomplete.
Finally, IA improperly awarded at least $5.5 million in sole source tasks to a contractor
by inappropriately modifying an existing task order in violation of the Federal
Acquisition Regulation. Overall, the modifications more than quadrupled expenditures
for the task order and nearly tripled the performance period.

Grants Management
Audits of FWS grants awarded to sixteen states, the District of Columbia, and the
Commonwealth of the Northern Mariana Islands revealed a potential savings of $7.5
million. The grants are awarded under the Federal Assistance Program for State Wildlife
and Sport Fish Restoration (Federal Assistance Program). The grants finance up to 75
percent of state-sponsored projects, such as developing sites for boating access and
acquiring and managing natural habitats. Examples of potential savings include $1.2
million in unsupported personnel costs charged to grants by the District of Columbia,
$678,033 in funds used in Texas on unauthorized locations, and $269,931 in costs
incurred in Arizona that were outside the grant period.

We also identified other conditions that need attention. For example;

       ¾ Nine audits identified licensing as a significant issue, including potential
         improper use of hunting and fishing license revenue and inaccurate counts of
         license holders;
       ¾ Nine audits identified grantees that earned program income using grant funds
         but did not account for it in an appropriate manner;
       ¾ Seven audits found grantees lacked adequate control over personal property,
         and four of the audits found inadequate control over real property; and
       ¾ Five audits identified deficiencies — such as using the incorrect indirect cost
         rate — in the accounting for indirect costs incurred under the grant.




                                            8
